REVIEW OF STAFFING AT FAA’S COMBINED
RADAR APPROACH CONTROL AND TOWER
       WITH RADAR FACILITIES
        Federal Aviation Administration

         Report Number: AV-2007-038
         Date Issued: March 16, 2007
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of Staffing at                              Date:    March 16, 2007
           FAA’s Combined Radar Approach Control
           and Tower With Radar Facilities
           Federal Aviation Administration
           Report No. AV-2007-038
  From:                                                            Reply to
           David A. Dobbs                                          Attn. of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Federal Aviation Administrator

           This report presents the results of our review of staffing at combined radar
           approach control and tower with radar facilities. The review was requested by
           Representative James Oberstar, then Ranking Democratic Member of the House
           Committee on Transportation and Infrastructure, and Representative Jerry
           Costello, then Ranking Democratic Member of the House Subcommittee on
           Aviation, after the fatal accident of Comair flight 5191 in Lexington, Kentucky.
           We conducted our review between September 2006 and January 2007. Exhibit A
           contains details on the scope and methodology we used in conducting this review.
           Exhibit B lists the facilities we visited.

           On the morning of August 27, 2006, Comair flight 5191 was scheduled to fly from
           Lexington, Kentucky, to Atlanta, Georgia. Based on preliminary reports, the
           pilots mistakenly taxied onto the wrong runway at Lexington and executed their
           take-off roll. The runway, however, was too short to complete a take-off, and a
           tragic accident occurred that resulted in the loss of 49 passengers and crew.

           Shortly after the accident, media reports surfaced indicating that only one air
           traffic controller was working in the tower at Lexington at the time of the accident.
           According to those reports, the controller was working both tower and radar
           functions combined and reportedly had his back turned to the airfield during
           Comair 5191’s take-off roll. The media also reported that this was contrary to
           Federal Aviation Administration (FAA) policy, which reportedly required that two
           controllers be present in towers that provide both tower control and radar services.
                                                                                    2




OBJECTIVES
In an August 30, 2006, letter, Representatives James Oberstar and Jerry Costello
requested that the Office of Inspector General review the FAA policy that
reportedly prohibited one controller from performing both radar and tower
controller duties and determine the extent to which the towers covered by the
policy were complying with it. A copy of their request is attached as an appendix
to this report.

Specifically, Representatives Oberstar and Costello requested the Office of
Inspector General to determine:

   1. Whether the FAA guidance was written or verbal and how the guidance
      was communicated,
   2. How many towers were not in compliance with the guidance at the time of
      the Comair accident,
   3. How many towers were not in compliance with the guidance at some point
      between the date of the issuance of the guidance and the time of the Comair
      accident, and
   4. What steps FAA took to (a) review staffing at its facilities to determine
      whether they were complying with the guidance and (b) require compliance
      if they were not.


BACKGROUND
A combined radar approach control and tower with radar facility is an air traffic
control terminal that provides radar control to aircraft arriving to and departing
from the primary airport and adjacent airports and to aircraft transiting in the
terminal’s airspace. The terminal is divided into two separate functional areas—
radar approach control positions and tower positions. Radar approach control
positions provide radar control service to aircraft arriving in, departing from, or
transiting in airspace controlled by the facility, while tower positions control air
traffic on the surface of airports by giving pilots taxiing and take-off instructions,
issuing air traffic clearances, and providing separation between landing and
departing aircraft. These two areas are located within the same facility or in close
proximity to one another, and controllers rotate between both areas. As of January
2006, FAA operated 138 combined radar approach control and tower with radar
facilities. We limited our review to 62 of the 138 facilities. These 62 facilities are
                                                                                                                       3


designated Levels 5 through 9 and are most comparable to the Lexington Tower
(which is a Level 7 tower).1


Figure 1. Radar Approach Control and Tower With Radar Facility
                  at Abilene, Texas (Level 7)




                              Source: Office of Inspector General


RESULTS IN BRIEF
We found that FAA’s Vice President of Terminal Services issued verbal guidance
in late August 2005 regarding staffing at facilities that have combined radar
approach control and tower with radar functions. This guidance (which was in
response to an operational error that had occurred at Raleigh-Durham, North
Carolina, on August 17, 2005) reiterated that during midnight shifts at facilities
with both radar and tower functions, two controllers should normally be on duty
performing those responsibilities.

According to the Vice President for Terminal Services, he expected his area
directors to disseminate the guidance to their hub managers who in turn would
disseminate the guidance to individual facility managers.

We found, however, that because the guidance was verbal, it was misinterpreted
and inconsistently applied. As a result, staffing on midnight shifts at combined
radar approach control and tower with radar facilities was not uniformly compliant
with the guidance established by the Vice President of Terminal Services. On the
date of the Comair accident, there were 2 additional facilities (for a total of 3 out
of 62) where only 1 controller was scheduled on the midnight shift—these were in
Duluth, Minnesota, and Fargo, North Dakota.
1
    FAA air traffic facilities are categorized into multiple levels (5 through 12); the higher the level, the greater the
    demand on a controller’s judgment, skill, and decision-making ability.
                                                                                       4


We reviewed a statistical sample of 20 randomly selected weeks of staffing data
for midnight shifts at 15 of the 62 facilities in our universe (a total of 2,100 shifts).
Our review identified 234 shifts where only 1 controller was scheduled on the
midnight shift. Based on the results of our sample, we can statistically project
(with a 95-percent confidence level) that approximately 2,563 or 11.1 percent of
the 23,002 total midnight shifts (at the 62 facilities in our universe) were staffed
with only 1 controller between August 28, 2005, and September 2, 2006.

We did note that the number of non-compliant towers in our sample was higher at
the beginning of the scope period and then steadily declined as time went on.
Managers informed us that this occurred because they needed time to analyze the
operational impact of the guidance on their ability to accomplish needed training
and grant annual leave. Additionally, managers advised us that they needed to
consult with their local union to facilitate the schedule change.

However, we also found that even though two controllers may have been
scheduled on a midnight shift, there were no assurances that they were both on
position. We reviewed position logs at each of the facilities we visited. (Position
logs indicate which tower and radar positions are open during a shift and who is
actually working those positions).

During this review, we found evidence suggesting that the radar and ground
control duties were combined for substantial periods of time even though there
were at least two controllers on duty. For example, at several facilities, position
logs we reviewed showed that all positions on midnight shifts were routinely
combined and the two controllers on duty alternated between working the one
position and taking breaks.

Finally, we found that prior to the Comair accident, FAA had no controls in place
to ensure that facilities had consistently implemented the verbal guidance and
were uniformly complying with it. Immediately following the Comair accident,
area directors placed calls to their hub managers who in turn called their facility
managers to determine the extent to which the guidance had been followed and to
reiterate its provisions. However, prior to those actions, no formal review of
compliance had been conducted.

Since the Comair accident, FAA has formalized the verbal guidance into a written
order—FAA Notice N JO 7210.639, “Consolidating Control Functions”—
effective November 17, 2006. Formalizing the verbal guidance into written
requirements is, in our opinion, an appropriate and necessary action. We are
recommending that FAA communicate all future guidance changing or reiterating
existing air traffic policies and procedures in writing to ensure uniform
implementation and compliance.
                                                                                   5


We are also recommending that FAA develop and implement appropriate policies
and procedures to ensure that facilities are complying with provisions of FAA
Notice N JO 7210.639.

We briefed staff from Representative Oberstar’s and Representative Costello’s
offices on December 20, 2006, concerning the results of our review. Based on
discussions at that briefing, we agreed to perform a follow-up review to determine
if combined radar approach control and tower with radar facilities are complying
with written provisions contained in FAA Notice N JO 7210.639.


FINDINGS

Guidance for Staffing the Midnight Shifts Was Communicated
Verbally
We found that the guidance regarding staffing on the midnight shifts was issued
verbally by FAA’s Vice President of Terminal Services during the week of
August 28, 2005. The guidance was issued in response to an operational error that
had occurred at the Raleigh-Durham, North Carolina, air traffic control tower
earlier in the month. Only one air traffic controller was working at the time of the
error, and he was working both tower and radar functions combined. In that
instance, the controller cleared an inbound aircraft to descend into the path of
another aircraft that had departed the airport, and this action resulted in the
operational error.

We met with FAA’s Vice President of Terminal Services in September 2006 to
obtain a better understanding of the guidance and to determine how the guidance
was disseminated. During the meeting, he indicated that he was surprised to learn
that only one controller was working at the time of the error and that he needed to
reiterate his expectations as to how midnight shift operations should be conducted.
Accordingly, he briefed the three service area directors who report directly to him
and instructed them to pass the guidance down through their hub managers and
ultimately to the local facility managers. According to FAA’s Vice President of
Terminal Services the guidance essentially stated that:

     At combined radar approach control and tower with radar facilities, two
     controllers should perform the separate functions of tower versus radar. The
     facility manager should either have one controller in the tower (controlling
     aircraft on the surface) and one controller in the approach control (controlling
     aircraft in the air) or the manager could elect to operate the radar function in
     the tower. However, in any event, one controller was required for the tower
     function and a second controller was required for the radar function. The
                                                                                  6


     manager could choose to close down the approach control and bring the radar
     function into the tower. However, if the radar function was brought into the
     tower, then the controller should “come with it.”

The Vice President of Terminal Services indicated to us that he felt it necessary to
issue the verbal guidance in order to clarify provisions of FAA Order 7210.3U,
“Facility Operations and Administration,” issued February 16, 2006. However,
we found that while the Order contained policies requiring shared responsibility
for the safe and efficient operation of a facility among all staff, it did not have
specific requirements regarding staffing during midnight shifts.


Because the Guidance Was Verbal, It Was Misinterpreted and
Inconsistently Applied
We found, that because the guidance was verbal, it was misinterpreted and
inconsistently applied. As a result, staffing on midnight shifts at combined radar
approach control and tower with radar facilities was not uniformly compliant with
the guidance established by the Vice President of Terminal Services.


Three Towers Were Non-Compliant With the Guidance at the Time of the
Comair Accident
As of January 2006, there were 138 combined radar approach control and tower
with radar facilities in the National Airspace System. Seventy-three of these
facilities operated 24 hours per day. In order to determine the number of facilities
that were not in compliance with the guidance at the time of the Comair accident
(August 27, 2006), we limited our review to 62 facilities that were designated Air
Traffic Control Level 5 through 9. These 62 facilities are closest in complexity to
the Lexington, Kentucky, facility (a Level 7 facility).

To determine if facilities were complying with the guidance on August 27, 2006,
we contacted each of the 62 radar approach control and tower with radar facilities
and requested actual staffing data for the midnight shift on that date. Based on our
review of those data, we found that 3 of the 62 towers (5 percent) were not in
compliance with the guidance at the time of the Comair accident. They were
Duluth, Minnesota; Fargo, North Dakota; and Lexington, Kentucky.
                                                                                    7



Eight of the 15 Towers Sampled Were Non-Compliant With the Guidance
at Some Point Between When It Was Issued and the Date of the Comair
Accident
To determine the number of towers that were not in compliance with the guidance
at some point between when it was issued and the date of the Comair accident, we
statistically selected and reviewed 15 of the 62 facilities in our universe. We
performed site visits at 6 of the 15 facilities. During these visits, we requested and
reviewed staffing data for 20 randomly selected weeks to determine if the towers
were in compliance with the guidance. We also reviewed the same 20 weeks of
staffing data for the 9 facilities that we did not visit; FAA Headquarters provided
us with those data.

We found that 8 of the 15 towers in our sample were not in compliance with the
guidance at some point between when the guidance was issued and the date of the
Comair accident. Those facilities were: Duluth, Minnesota; Des Moines, Iowa;
Huntington, West Virginia; Wilkes-Barre, Pennsylvania; Great Falls, Montana;
Billings, Montana; Abilene, Texas; and Nashville, Tennessee.

Based on those results, we can statistically project (with a 95-percent confidence
level) that the number of facilities in our universe of 62 facilities that were not in
compliance with the guidance at some point during the sampled periods ranged
between 19 and 47 facilities, with a best estimate of 33 facilities or 53.3 percent of
the facilities in our universe.

However, this percentage does not represent how frequently those facilities may
have had only one controller on duty during a midnight shift. For example, 1 of
the 15 facilities in our sample had as few as 1 midnight shift staffed with
1 controller, while another facility in our sample had as many as 133 midnight
shifts staffed with 1 controller.


Approximately 11 Percent of all Midnight Shifts at the 62 Facilities Were
Staffed With Only 1 Controller Between August 2005 and the Date of the
Comair Accident
To determine how frequently midnight shifts were staffed with only 1 controller,
we reviewed 140 days of staffing data for midnight shifts at each of the
15 facilities in our sample, which totaled 2,100 shifts. Of that amount, we found
234 non-compliant shifts where only 1 controller was on duty or 11.1 percent of
the midnight shifts.

Based on that sample, we can statistically project (with a 95-percent confidence
level) across all 62 facilities in our universe that there were between
                                                                                                    8


        234 (1 percent) and 5,043 (21.9 percent) non-compliant shifts out of a total of
        23,002 midnight shifts from August 28, 2005, to September 2, 2006, with a best
        estimate of 2,563 or 11.1 percent non-compliant shifts. In other words,
        approximately 2,563 or 11.1 percent of the 23,002 total midnight shifts at the
        62 facilities in our universe from August 28, 2005, to September 2, 2006, were
        staffed with only 1 controller. Figure 2 provides the results of our review at the
        15 randomly selected towers.

              Figure 2. Instances of Non-Compliance at the 15 Randomly
                            Selected Towers in Our Sample
                                       (Facilities highlighted were non-compliant)

                                  Facilities              Total               Non-
                                  Reviewed                Shifts            Compliant
                                                         Reviewed             Shifts
                             1 Dayton*                     140                  0
                             2 El Paso*                    140                  0
                             3 Louisville                  140                  0
                             4 Rochester                   140                  0
                             5 Springfield*                140                  0
8 of 15 facilities                                                                      234 of 2,100 shifts
(53.3 percent) were not
                             6 Syracuse                    140                  0       (11.1 percent) were not
compliant with the           7 Tulsa*                      140                  0       compliant with the
guidance.                                                                               guidance.
                             1 Abilene*                    140                  1
                             2 Billings                    140                  2
                             3 Great Falls                 140                  7
                             4 Wilkes-Barre/               140                 14
                             Scranton
                             5 Nashville                     140                 16
                             6 Huntington*                   140                 28
                             7 Des Moines                    140                 33
                             8 Duluth                        140                 133
                             15 Facilities                  2,100                234
                           Source: Office of Inspector General
                          *Facility was visited by the Office of Inspector General.

        We did note that the number of non-compliant towers in our sample was higher at
        the beginning of the scope period and then steadily declined as time went on.
        Facility managers informed us that this occurred because they needed time to
        analyze the operational impact of the guidance on their ability to accomplish
        needed training and grant annual leave. Additionally, managers advised us that
        they needed to consult with their local union to facilitate the schedule change.
        Figure 3 demonstrates this trend.
                                                                                                                                     9


 Figure 3. Number of Non-Compliant Towers out of a Sample of
             15 for 20 Randomly Selected Weeks

                                              8

                                              7       7
     Number of Non-compliant Towers



                                              6

                                              5   5       5

                                              4               4   4

                                              3

                                              2                       2   2       +2             2       2   2               2

                                              1                               1          1   1       1           1   1   1       1

                                              0
                                                                    06
                                                                    05


                                                                    05




                                                                    05




                                                                     6




                                                                     6
                                                                     6


                                                                     6




                                                                   06
                                                                   06
                                                                     6




                                                                     6




                                                                     6
                                                                   06




                                                                     6
                                                                  06


                                                                    6

                                                                   06


                                                                   06


                                                                   06




                                                                  l0
                                                                 b0


                                                                 b0




                                                                 n0
                                                                 n0




                                                                  l0




                                                                p0
                                                                   0
                                                                 r0
                                                                ov


                                                               ec
                                                                ct


                                                                ct




                                                               ay




                                                                 n
                                                               ay




                                                               ug
                                                               pr


                                                               pr


                                                               pr
                                                               ar




                                                              Ju


                                                              Ju
                                                               p




                                                             Ju
                                                             Fe


                                                             Fe




                                                             Ju
                                                             Ja




                                                             Se
                                                              O


                                                              O


                                                              N


                                                              D




                                                             M




                                                             M


                                                             M
                                                             A


                                                             A


                                                             A


                                                             A




                                                             A
                                                            01
                                                           08


                                                           15




                                                           29
                                                           26




                                                           03
                                                           07
                                                          17




                                                          11


                                                          25




                                                          17




                                                          02
                                                          08


                                                          15


                                                          22


                                                          29
                                                          11




                                                          13


                                                          27




                                                          26
                                                        to
                                                        to


                                                        to




                                                        to
                                                       to




                                                       to
                                                       to




                                                      to
                                                       to




                                                      to


                                                      to




                                                      to
                                                      to


                                                      to


                                                      to


                                                      to
                                                      to




                                                     to


                                                      to




                                                     to
                                                     6
                                                   05


                                                   05




                                                    6
                                                  05


                                                  05




                                                  06
                                                    6


                                                   6


                                                   6




                                                   6




                                                  06
                                                 06


                                                 06


                                                 06


                                                 06
                                                 06




                                                 n0
                                                 06


                                                 06




                                                 06
                                                  l0
                                                n0


                                                b0


                                                b0




                                                n0
                                         ct


                                                ct


                                               ov




                                               ay
                                               ec




                                              Ju
                                               pr


                                               pr


                                               pr


                                               pr




                                              ug
                                               ar




                                              ay


                                              ay




                                              ug
                                              Ju
                                             Ja


                                             Fe


                                             Fe
                                        O


                                              O




                                             Ju
                                             N


                                             D




                                             A


                                             A


                                             A


                                             A
                                            M




                                            M




                                           23
                                            m




                                            A
                                            M
                                      02


                                           09




                                           25




                                            A
                                          01
                                          20


                                          11




                                          05


                                          19




                                          02


                                          09


                                          16


                                          23




                                          11
                                         05




                                         28




                                         27
                                         07


                                         21




                                         20
                                                                                       Week of

                          Source: Office of Inspector General


Although Two Controllers May Have Been Scheduled, There Were No
Assurances That They Were Both on Position
We also found that even though two controllers may have been scheduled, there
were no assurances that they were both on position. We reviewed 10 weeks of
position logs at each of the 6 facilities we visited. The position logs indicate
which tower and radar positions are open during a shift and who is actually
working those positions. During this review, we found evidence suggesting that
the radar and ground control duties were combined for substantial periods of time
even though there were at least two controllers on duty. The controllers on duty
were combining all open positions and alternating between breaks and working
one at a time. For example, at several facilities, position logs we reviewed showed
that all positions on midnight shifts were routinely combined and the two
controllers on duty alternated between working the one position and taking breaks.


Prior to the Accident, FAA Had Not Taken Steps To Ensure That
Towers Were in Compliance With the Guidance
Finally, we found that prior to the Comair accident, FAA had no controls in place
to ensure that facilities had consistently implemented and were uniformly
complying with the guidance. Immediately following the Comair accident, area
directors placed calls to their hub managers who in turn called their facility
managers to determine the extent to which the guidance had been followed and to
                                                                                  10


reiterate its provisions. However, prior to those actions, no formal review of
compliance had been conducted.

Since the Comair accident, FAA has formalized the verbal guidance into a written
order—FAA Notice N JO 7210.639, “Consolidating Control Functions”—
effective November 17, 2006. The formal policy states the following:

     At facilities where both tower and radar/nonradar approach control services
     are provided, the air traffic manager must ensure, to the maximum extent
     possible, that these functions are not consolidated unless unforeseen
     circumstances or emergency situations arise. . . .

     During midwatch operations (between 2230 and 0630 local time), when
     traffic is very light, all functions may be consolidated for short meal or
     physiological breaks. At facilities with a tower only operation and staffing of
     only one certified professional controller (CPC), coordination must be
     accomplished with the facility providing radar/non-radar approach control
     services to the airport before the CPC can leave the operational quarters for
     physiological breaks. This should only be done during periods of light to
     zero traffic.

Additionally, facilities have the option of closing the radar operation altogether
and transferring responsibility for the airspace to a larger facility during the
midnight shift.

Formalizing the verbal guidance into written requirements is, in our opinion, an
appropriate and necessary action. We are recommending that FAA communicate
all future guidance changing or reiterating existing air traffic control policies and
procedures in writing to ensure uniform implementation and compliance.

We are also recommending that FAA develop and implement appropriate
procedures to ensure that facilities are complying with provisions of FAA Notice
N JO 7210.639.

We briefed staff from Representative Oberstar’s and Representative Costello’s
offices on December 20, 2006, concerning the results of our review. Based on
discussions at that briefing, we agreed to perform a follow-up review to determine
if combined radar approach control and tower with radar facilities are complying
with written guidance contained in FAA Notice N JO 7210.639.
                                                                               11


RECOMMENDATIONS
We recommend that FAA:

   1. Communicate all future guidance changing or reiterating existing air traffic
      policies and procedures in FAA Order 7210.3U, “Facility Operation and
      Administration,” in writing to ensure uniform implementation and
      compliance.

   2. Develop and implement appropriate procedures to ensure that facilities are
      complying with provisions of FAA Notice N JO 7210.639, “Consolidating
      Control Functions.”


MANAGEMENT COMMENTS
We provided FAA’s Vice President of Terminal Services with a copy of our draft
report on February 16, 2007. He agreed with the facts as presented in our report
and generally concurred with our findings and recommendations.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 15 business days. Please
indicate the specific action taken or planned for each recommendation and the
target date for completion.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call Robin Hunt,
Acting Assistant Inspector General for Aviation and Special Program Audits, at
(415) 744-0420 or Dan Raville, Program Director, at (202) 366-1405.



                                        #


cc: FAA Deputy Administrator
    ATO Chief Operating Officer
    FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                  12


EXHIBIT A. SCOPE AND METHODOLOGY
This audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurances of detecting abuse or
illegal acts. The following scope and methodology were used in conducting this
review.

To identify the FAA guidance regarding air traffic controller staffing during
midnight shifts at combined radar approach control and tower with radar facilities
performing both radar work and ground duties, we interviewed FAA’s Vice
President of Terminal Services and FAA’s Director of Terminal Safety. We also
interviewed the Directors of FAA’s Terminal Service Area Directorates to
determine when they became aware of the guidance and to determine what steps
each Director took to ensure the facilities in their Directorates were complying
with the guidance.

We interviewed hub managers to determine when they became aware of the
guidance and to determine what steps they took to ensure that the facilities in their
hubs were in compliance with the guidance. Finally, we interviewed facility
managers at each facility we visited to determine when they became aware of the
guidance and what steps they took to comply with it.

We contacted FAA to determine the number and type of facilities affected by the
guidance. Per FAA, as of January 2006, there were 138 FAA combined radar
approach control and tower with radar facilities, and 73 of the 138 facilities
operated 24 hours a day. FAA air traffic facilities are categorized into multiple
Air Traffic Control levels (5 through 12); the higher the level, the greater the
demand on a controller’s judgment, skill, and decision-making ability.

In order to answer the congressional request, we elected to test 62 of the
73 facilities. These 62 facilities are designated Levels 5 through 9 and are most
comparable to the Lexington Tower, which is a Level 7 tower. We elected not to
include facilities designated as Levels 10 through 12 in our review because their
higher traffic levels and complexity make it far less likely that only 1 controller
would be scheduled to work during midnight hours.




Exhibit A. Scope and Methodology
                                                                                                          13


We statistically selected 15 of the 62 facilities to review. Those facilities are listed
in table 1.


                        Table 1. Sample of 15 Facilities Reviewed
 Facility ID   Facility Name                                       City                    State   ATC Level
 GTF           Great Falls International Airport                   Great Falls             MT          5
 DLH           Duluth International Airport                        Duluth                  MN          6
 HTS           Tri-State/Milton J. Ferguson Field Airport          Huntington              WV          6
 ABI           Abilene Regional Airport                            Abilene                 TX          7
 AVP           Wilkes-Barre/Scranton International Airport         Wilkes-Barre/Scranton   PA          7
 BIL           Billings Logan International Airport                Billings                MT          7
 DSM           Des Moines International Airport                    Des Moines              IA          7
 ELP           El Paso International Airport                       El Paso                 TX          7
 SGF           Springfield-Branson Regional Airport                Springfield             MO          7
 DAY           James M Cox Dayton International Airport            Dayton                  OH          9
 ROC           Greater Rochester International Airport             Rochester               NY          8
 SYR           Syracuse Hancock International Airport              Syracuse                NY          8
 BNA           Nashville International Airport                     Nashville               TN          9
 SDF           Louisville International-Standiford Field Airport   Louisville              KY          9
 TUL           Tulsa International Airport                         Tulsa                   OK          9
Source: Office of Inspector General

We performed site visits at 6 of the 15 facilities during the weeks of
October 16, 2006, and October 30, 2006. (Before beginning this review, we also
visited Roanoke Regional Airport to obtain an understanding of the data used.
Roanoke was not included in the statistical sample and is not included in the
analysis of the 15 sites selected). See exhibit B for a listing of the six facilities we
visited.

During these visits, we also requested and reviewed staffing data for the
20 randomly selected weeks shown in table 2 to determine if the facilities were in
compliance with the guidance during our scope period of August 28, 2005,
through September 2, 2006.




Exhibit A. Scope and Methodology
                                                                                                                   14



                        Table 2. 20 Randomly Selected Weeks
   S a m p le N o                   B e g in n in g o f W e e k                         End of W eek
         1          S u n d a y,   0 2 O cto b e r 2 0 0 5        S a tu rd a y,   08   O cto b e r 2 0 0 5
         2          S u n d a y,   0 9 O cto b e r 2 0 0 5        S a tu rd a y,   15   O cto b e r 2 0 0 5
         3          S u n d a y,   20 N ovem ber 2005             S a tu rd a y,   26   N o ve m b e r 2 0 0 5
         4          S u n d a y,   11 D ecem ber 2005             S a tu rd a y,   17   D e ce m b e r 2 0 0 5
         5          S u n d a y,   0 1 Ja n u a ry 2 0 0 6        S a tu rd a y,   07   J a n u a ry 2 0 0 6
         6          S u n d a y,   0 5 F e b ru a ry 2 0 0 6      S a tu rd a y,   11   F e b ru a ry 2 0 0 6
         7          S u n d a y,   1 9 F e b ru a ry 2 0 0 6      S a tu rd a y,   25   F e b ru a ry 2 0 0 6
         8          S u n d a y,   0 5 M a rch 2 0 0 6            S a tu rd a y,   11   M a rch 2 0 0 6
         9          S u n d a y,   0 2 A p ril 2 0 0 6            S a tu rd a y,   08   A p ril 2 0 0 6
        10          S u n d a y,   0 9 A p ril 2 0 0 6            S a tu rd a y,   15   A p ril 2 0 0 6
        11          S u n d a y,   1 6 A p ril 2 0 0 6            S a tu rd a y,   22   A p ril 2 0 0 6
        12          S u n d a y,   2 3 A p ril 2 0 0 6            S a tu rd a y,   29   A p ril 2 0 0 6
        13          S u n d a y,   07 May 2006                    S a tu rd a y,   13   M ay 2006
        14          S u n d a y,   21 May 2006                    S a tu rd a y,   27   M ay 2006
        15          S u n d a y,   28 May 2006                    S a tu rd a y,   03   June 2006
        16          S u n d a y,   1 1 Ju n e 2 0 0 6             S a tu rd a y,   17   June 2006
        17          S u n d a y,   2 5 Ju n e 2 0 0 6             S a tu rd a y,   01   J u ly 2 0 0 6
        18          S u n d a y,   2 3 Ju ly 2 0 0 6              S a tu rd a y,   29   J u ly 2 0 0 6
        19          S u n d a y,   20 August 2006                 S a tu rd a y,   26   August 2006
        20          S u n d a y,   27 August 2006                 S a tu rd a y,   02   S e p te m b e r 2 0 0 6

   Source: Office of Inspector General

We reviewed the same 20 weeks of staffing data for the 9 facilities (in our sample
of 15) that we did not visit. Those data were provided by FAA Headquarters.

We interviewed facility managers at each location we visited to determine staffing
levels and traffic counts on the midnight shift and obtain their views on
implementation of the staffing guidance.              We also interviewed union
representatives at each of the six facilities we visited to obtain their view on how
the implementation of the guidance had impacted staffing at the facility.

We obtained and reviewed position logs from the six facilities we visited to
validate the reliability of the staffing data for each facility. The position logs
indicate which tower and radar positions are open during a shift and who is
actually working those positions. We also listened to tapes of conversations
between controllers and pilots during the midnight shift to validate if information
on the position logs were valid. At some facilities, we reviewed time and
attendance records to validate the number of controllers on duty during a midnight
shift.

We observed operations during the midnight shift and reviewed traffic count data
for the midnight shift to determine the amount of activity on the midnight shift.




Exhibit A. Scope and Methodology
                                                                     15


EXHIBIT B. FACILITIES VISITED


   • Tri-State/Milton J. Ferguson Field, Huntington, West Virginia

   • Abilene Regional Airport, Abilene, Texas

   • El Paso International Airport, El Paso, Texas

   • Springfield-Branson Regional Airport, Springfield, Missouri

   • James M Cox Dayton International Airport, Dayton, Ohio

   • Tulsa International Airport, Tulsa, Oklahoma




Exhibit B. Facilities Visited
                                                   16


EXHIBIT C. MAJOR CONTRIBUTORS


Daniel Raville                  Program Director

Angela McCallister              Project Manager

Marshall Jackson                Senior Analyst

Benjamin Huddle                 Analyst

Tasha Thomas                    Analyst

Petra Swartzlander              Statistician

Andrea Nossaman                 Writer-Editor




Exhibit C. Major Contributors
                                                                                               17


APPENDIX. CONGRESSIONAL REQUEST




Mr. Todd Zinser
Acting Inspector General
U.S. Department of Transportation
Washington, D.C. 20590

Dear Mr. Zinser:

         There have been some disturbing reports in the wake of the August 27, 2006 Comair
Flight 5191 crash in Lexington, Kentucky. This terrible tragedy resulted in the deaths of 49
people, and the media has reported, and the Federal Aviation Administration (FAA) has
confirmed, that the Blue Grass Airport air traffic control tower was understaffed at the time
of the accident.

         Air traffic controllers are an important component to the safe operation of our
nation’s air traffic system, and their effectiveness requires proper staffing levels at each
facility. It was reported that in November 2005, an overloaded controller at the Raleigh,
North Carolina airport directed two planes too close to one another, and this close call
prompted the FAA to issue “guidance” forbidding air traffic controllers with certain
responsibilities from working alone.

        An FAA statement of August 29, 2006, states that some air traffic control towers
which control surface traffic also “separate airborne aircraft using radar equipment. FAA
guidance is to provide individual controllers for the radar and control tower functions.” It is
not clear whether this guidance is written or verbal. The statement further indicates that this
guidance was not followed at the Lexington tower where the manager decided to have “one
controller handle both functions during the overnight shift.” While the National
Transportation Safety Board has yet to issue a full report of its findings regarding the causes
of the Comair Flight 5191 accident, it is not too early to investigate how widely the staffing
practice at the Blue Grass Airport is practiced at other critical air traffic control facilities
across the nation.



Appendix. Congressional Request
                                                                                            18


Mr. Todd Zinser
Page 2

        Therefore, we would like your office to review the November 2005 FAA guidance,
and determine the extent to which the towers covered by the guidance are complying with it.
Was the “guidance” written or verbal? If verbal, how was it communicated? How many
towers were not in compliance at the time of the Comair accident, and how many were not in
compliance at some point between the dates of the issuance of the guidance and the accident?
What steps did FAA take to review staffing at its facilities to determine whether they were
complying with the guidance, and to require compliance if they were not?

       If, in the course of your work, you identify other relevant issues that you believe the
Congress should be aware of, we would like you to include them in your analysis.

         Should you have any questions or need any additional information, please contact
Stacie Soumbeniotis, Democratic Staff Director, or John Drake, Democratic Professional
Staff, of the Subcommittee on Aviation at (202) 225-9161.

                                          Sincerely,




        James L. Oberstar                                 Jerry F. Costello
        Ranking Democratic Member                         Ranking Democratic Member
        Committee on Transportation                       Subcommittee on Aviation
        and Infrastructure




Appendix. Congressional Request
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to assist screen readers.
Report on the Review of Staffing at the Federal Aviation Administration’s Radar
              Approach Control and Tower with Radar Facilities.

                           Section 508 Compliant Presentation

Figure 2. Instances of Non-Compliance at the 15 Randomly Selected Towers in Our
Sample

      Facilities           Total        Non-
      Reviewed             Shifts     Compliant
                          Reviewed      Shifts
 1 Dayton                   140           0
 2 El Paso                  140           0
 3 Louisville               140           0
 4 Rochester                140           0
 5 Springfield              140           0
 6 Syracuse                 140           0
 7 Tulsa                    140           0
 1 Abilene                  140           1
 2 Billings                 140           2
 3 Great Falls              140           7
 4 Wilkes-Barre/            140          14
 Scranton
 5 Nashville                 140          16
 6 Huntington                140         28
 7 Des Moines                140          33
 8 Duluth                    140         133
 15 Facilities              2,100        234
Source: Office of Inspector General

 • The facilities that the Office of Inspector General visited: Dayton, El Paso,
   Springfield, Tulsa, Abilene, and Huntingdon.

 • 8 of 15 facilities (53.3 percent) were not compliant with the guidance. These
   facilities were Abilene, Billings, Great Falls, Wilkes-Barre/Scranton, Nashville,
   Huntington, Des Moines, and Duluth.

 • 234 of 2,100 shifts (11.1 percent) were not compliant with the guidance.
Figure 3. Number of Non-Compliant Towers out of a Sample of 15 for 20 Randomly
Selected Weeks

  Week                  Dates for Sample Week          Number of Non-Compliant
 Sample                                                        Towers
 Number
    1         October 2, 2005 to October 8, 2005                 5
    2         October 9, 2005 to October 15, 2005                7
    3         November 20, 2005 to November 26, 2005             5
    4         December 11, 2005 to December 17, 2005             4
    5         January 1, 2006 to January 7, 2006                 4
    6         February 5, 2006 to February 11, 2006              2
    7         February 19, 2006 to February 25, 2006             2
    8         March 5, 2006 to March 11, 2006                    1
    9         April 2, 2006 to April 8, 2006                     2
   10         April 9, 2006 to April 15, 2006                    1
   11         April 16, 2006 to April 22, 2006                   1
   12         April 23, 2006 to April 29, 2006                   2
   13         May 7, 2006 to May 13, 2006                        1
   14         May 21, 2006 to May 27, 2006                       2
   15         May 28, 2006 to June 3, 2006                       2
   16         June 11, 2006 to June 17, 2006                     1
   17         June 25, 2006 to July 1, 2006                      1
   18         July 23, 2006 to July 29, 2006                     1
   19         August 20, 2006 to August 26, 2006                 2
   20         August 27, 2006 to September 2, 2006               1
Source: Office of Inspector General
Table 1. Sample of 15 Facilities Reviewed

     Facility                      Facility Name                          City             State        Air Traffic
  Identification                                                                                       Control Level
 GTF               Great Falls International Airport             Great Falls           Montana              5
 DLH               Duluth International Airport                  Duluth                Minnesota            6
 HTS               Tri-State/Milton J. Ferguson Field Airport    Huntington            West Virginia        6
 ABI               Abilene Regional Airport                      Abilene               Texas                7
 AVP               Wilkes-Barre/Scranton International Airport   Wilkes-               Pennsylvania         7
                                                                 Barre/Scranton
 BIL               Billings Logan International Airport          Billings              Montana              7
 DSM               Des Moines International Airport              Des Moines            Iowa                 7
 ELP               El Paso International Airport                 El Paso               Texas                7
 SGF               Springfield-Branson Regional Airport          Springfield           Missouri             7
 DAY               James M. Cox Dayton International Airport     Dayton                Ohio                 9
 ROC               Greater Rochester International Airport       Rochester             New York             8
 SYR               Syracuse Hancock International Airport        Syracuse              New York             8
 BNA               Nashville International Airport               Nashville             Tennessee            9
 SDF               Louisville International-Standiford Field     Louisville            Kentucky             9
                   Airport
 TUL               Tulsa International Airport                   Tulsa                 Oklahoma             9
Source: Office of Inspector General

Table 2. 20 Randomly Selected Weeks

 Sample                Beginning of Week                                 End of Week
 Number
   1           Sunday, 02 October 2005                    Saturday, 08 October 2005
   2           Sunday, 09 October 2005                    Saturday, 15 October 2005
   3           Sunday, 20 November 2005                   Saturday, 26 November 2005
   4           Sunday, 11 December 2005                   Saturday, 17 December 2005
   5           Sunday, 01 January 2006                    Saturday, 07 January 2006
   6           Sunday, 05 February 2006                   Saturday, 11 February 2006
   7           Sunday, 19 February 2006                   Saturday, 25 February 2006
   8           Sunday, 05 March 2006                      Saturday, 11 March 2006
   9           Sunday, 02 April 2006                      Saturday, 08 April 2006
   10          Sunday, 09 April 2006                      Saturday, 15 April 2006
   11          Sunday, 16 April 2006                      Saturday, 22 April 2006
   12          Sunday, 23 April 2006                      Saturday, 29 April 2006
   13          Sunday, 07 May 2006                        Saturday, 13 May 2006
   14          Sunday, 21 May 2006                        Saturday, 27 May 2006
   15          Sunday, 28 May 2006                        Saturday, 03 June 2006
   16          Sunday, 11 June 2006                       Saturday, 17 June 2006
   17          Sunday, 25 June 2006                       Saturday, 01 July 2006
   18          Sunday, 23 July 2006                       Saturday, 29 July 2006
   19          Sunday, 20 August 2006                     Saturday, 26 August 2006
   20          Sunday, 27 August 2006                     Saturday, 02 September 2006
Source: Office of Inspector General
